No. 19-

 

IN THE
Supreme Court of the United States

Tony DESHAWN McCoy,

Petitioner,
Vv.

UNITED STATES OF AMERICA,

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fourth Circuit

CERTIFICATE OF SERVICE

The undersigned certifies that she has this 26th day of December 2019,
caused three copies of the foregoing Petition for a Writ of Certiorari to be
served on each of the below-named counsel by first-class mail, postage
prepaid, and further certifies that all persons required to be served have been
served:

Noel J. Francisco

Solicitor General

U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 20530

(202) 514-2217
SupremeCtBriefs@USDOJ.gov

ew IS WEL

Pamela S. Karlan
Counsel for Petitioner
